No. 19-1176
IN THE

Ouprente Court of tie Eutteb Otateo
FRESNO COUNTY SUPERINTENDENT OF SCHOOLS,
Petitioner,
v.
AILEEN RIZO,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF MUCUS CURIAE
SOCIETY FOR HUMAN RESOURCE
MANAGEMENT IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,077 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 22, 2020.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

